Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

April 29, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Nathan Van Buren v. United States
Case No. 19-783
Dear Mr. Harris,
On April 20, 2020 the Court granted review in this matter, making
Petitioner’s opening brief due on or before June 4, 2020. Petitioner hereby
requests an extension of time to July 1, 2020 in which to file the opening brief
and joint appendix and until August 27, 2020 for the government to file
respondent’s brief. The parties have conferred and agreed to this proposed
briefing schedule.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Petitioner

cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

